                                    NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230


    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM

DATE:          March 11, 2009

TO:            David A. Elizalde, Director
               Division of Acquisition and Cooperative Support (DACS)

THRU           Jannifer C. Jenkins /s/
               Senior Audit Manager

FROM:          Sherrye McGregor /s/
               Attorney-Advisor

SUBJECT: NSF OIG Audit Report No. OIG-09-1-004
         Audit of Abt Associates, Inc.’s Fiscal Year 2004 Incurred Costs

We contracted with the Defense Contract Audit Agency (DCAA), Boston Branch Office, to
perform a review of costs claimed in FYs 2002-2004 by Abt Associates, Inc. (Abt) on four NSF
awards.1 DCAA performed this work in conjunction with an audit requested by the US Agency
for International Development (USAID), Abt’s federal cognizant agency. The audit for fiscal
year (FY) 20042 is complete and includes a review of $2.9 million in costs that Abt claimed for
FY 2004 on three NSF awards, EEC-9815425, REC-9912174, REC-0230435, and five task
orders under a NSF-General Services Administration (GSA) Schedule Award No. GS-10F-
0086K. Abt provided technical support and evaluation assistance services to the Division of
Education and Engineering Centers (EEC), the Division of Industrial Innovation and
Partnerships (IIP), and the Division of Research on Learning in Formal and Informal Settings
(DRL).

The objectives of the audit were to 1) determine the allowability of direct and indirect costs
claimed to NSF by Abt for FY 2004 and 2) recommend contracting officer-determined indirect
cost rates for the fiscal year ending March 31, 2004. Except for the qualifications discussed
below, the audit was performed in accordance with Generally Accepted Government Auditing
Standards. The results of the DCAA audit are summarized below.




1
  The audit reports for FY 2002 and 2003 were issued in OIG Audit Report No. 07-1-019, “Audit of Abt Associates,
Inc.’s FY 2002 Incurred Costs,” and OIG Audit Report No. 08-6-002 “Audit of Abt Associates, Inc.’s FY 2003
Incurred Costs.”
2
  Abt Associates’ fiscal year is April 1 through March 31.
                                                         NSF OIG Audit Report No. OIG-09-1-004


Qualifications Affecting the Audit

As we reported in the transmissions of the Abt FYs 2002 and 2003 incurred cost audit reports,
DCAA identified Federal Acquisition Regulation (FAR) and Cost Accounting Standards (CAS)
violations in how Abt accumulated, reported, and billed indirect costs on government contracts.
These non-compliance issues arose when Abt changed the base it used to allocate home office
(corporate) expenses and was cited for failing to 1) notify the government of its cost accounting
change; 2) submit a cost impact proposal quantifying the effect of the accounting change, and 3)
use the basis of accounting for its corporate costs as identified in its disclosure statement. As a
result, DCAA estimated that $XXXXXX in additional costs was allocated to the government
sector G&A pool in FY 2002. However, DCAA cannot determine the amount of additional costs
that were allocated to the government sector G&A pool in FY 2003 or FY 2004 until it receives
the cost impact statement that it recommended that USAID obtain from Abt.

In addition, DCAA’s review of claimed pension costs disclosed that Abt may be in
noncompliance with the applicable Cost Accounting Standards governing pension costs and their
reimbursement under government contracts. Specifically, Abt may have not calculated pension
costs correctly because Abt used xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
xxxxxxxxxxxxxxxxxxxxxxxxxxxx. Thus, Abt may have recovered pension costs more quickly
than allowed. DCAA recommended that USAID have a CAS review performed to determine
whether Abt has properly amortized its pension costs. However, USAID has not provided
funding or approval for DCAA to perform the audit. Until such a review is performed, DCAA
cannot determine the dollar impact of the pension noncompliance on Abt’s FY 2003 or 2004
claimed costs.

Therefore, due to the noncompliance issues noted above, DCAA has qualified its audit opinion
because there may be additional questioned costs identified when the noncompliance issues are
resolved. The cognizant federal agency, USAID, is responsible for resolving Abt’s FAR and
CAS noncompliance issues. As of the date of DCAA’s FY 2004 audit report, and based on our
recent discussions with USAID and DCAA, neither of the above issues have been resolved.

Other Matters Concerning Abt’s Accounting System

Abt implemented Oracle Version 11i for its core accounting system. DCAA performed limited
testing of Abt’s accounting information generated by the Oracle System, however, DCAA did
not review the internal controls in Abt’s revised accounting system to determine if the system is
adequate for accumulating and reporting costs under government contracts. DCAA noted,
however, that it did not observe any internal control deficiencies or weaknesses as they relate to
Abt’s revised accounting system as a whole during the FY 2004 audit.

Results of FY 2004 Audit of Incurred Costs

In this report, DCAA found that Abt’s indirect rates are acceptable as proposed. No questioned
indirect costs were identified, however, questioned indirect costs may result as discussed above
relating to the noncompliance issues with the Cost Accounting Standards. DCAA did not



                                                2
                                                        NSF OIG Audit Report No. OIG-09-1-004


question any direct costs claimed in FY 2004 on any of the NSF contracts under audit. However,
$xxxxxxx of claimed consultant and other direct costs were questioned on other federal contracts
because Abt was unable to support the allowability of the claimed amounts. DCAA found that
Abt charged other direct costs that were not related to the specific consultant agreement to
USAID’s award. DCAA stated that it was hopeful that using consultant contracts to charge other
types of other direct costs to Federal awards was not a systemic problem.

Abt, in its written response to the audit findings, agreed with all $xxxxxxx of questioned Other
Direct Costs that were incorrectly recorded in FY 2004 instead of the prior year. Abt also agreed
with $ xxxxxxof $ xxxxxx of questioned consultant costs on a USAID contract. Abt believes the
remaining questioned consultant costs are still allowable costs of the USAID contract. Abt will
pursue final resolution of the questioned consultant costs with the USAID Contracting Officer.

We recommend that NSF’s Director of the Division of Acquisition and Cooperative Support
coordinate with the USAID Procurement Contracting Officer to resolve the outstanding CAS
issues concerning Abt’s accounting change and pension calculation methods and determine if
there are additional cost reductions to the indirect cost pools, which will affect the amounts
charged to NSF awards. The DCAA audit report and a schedule of allowable cost by NSF award
are attached. Exhibit B of DCAA’s report, identifying a schedule of allowable costs for all of
Abt’s federal contracts and Appendix 3 identifying a cumulative allowable cost worksheet will
be transmitted electronically to your office.

We are providing a copy of this memorandum to the Division Directors of EEC, IIP, and DRL.
The responsibility for audit resolution and coordination with the USAID Procurement
Contracting Officer rests with DACS. Accordingly, we ask that no action be taken concerning
the report’s findings without first consulting DACS at (703) 292-8242.


OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

   •   Reviewed DCAA’s approach and planning of the audit;
   •   Monitored the progress of the audit at key points;
   •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
       audit progress, findings and recommendations;
   •   Reviewed the audit report prepared by DCAA to ensure compliance with Generally
       Accepted Government Auditing Standards; and
   •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on Abt Associates and the conclusions
expressed in the report. The NSF OIG does not express any opinion on Abt’s incurred cost
submissions, the indirect rate applications, or the conclusions presented in DCAA’s audit report.




                                                3
                                                        NSF OIG Audit Report No. OIG-09-1-004



We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact me at (703) 292-5003 or Jannifer Jenkins at (703) 292-
4996.




Attachment 1: Schedule of Allowable Costs by NSF Award
Attachment 2: DCAA Audit Report No. 02171-2004J10100002, Audit of Abt Associates, Inc.
            FY 2004 Incurred Costs (not posted here – Contact USAID, the cognizant Federal
            agency)


cc:    Allen L. Soyster, Division Director, ENG/EEC
       Kesh S. Narayanan, Division Director, ENG/IIP
       Joan Ferrini-Mundy, Division Director, EHR/DRL




                                                4
                       NSF OIG Audit Report No. OIG-09-1-004


                                          ATTACHMENT 1




Redacted in Entirety




         5
